                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: I03030013
                                                                                 11          Page 1 of 1



          Opened case based on a proactive review of for-profit companies with NSF awards. Company had
          3 awards and various discrepancies in reporting: draw down amounts and expenditures matched
          evenly for 10 quarters, no equipment expenditures, unexplained corporate reorganization, missing
          final project reports, address and certifying official changes.

          After contacting the company president and Primary Investigator and reviewing financial records
          and statements, it was determined that there were legitimate explanations for the perceived
          discrepancies. The required Final Project Reports were filed with NSF and there are no indications
          of misconduct or criminal activity.


                    Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
